Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   CHILDREN’S USE OF HEALTH
    CARE SERVICES WHILE IN
     FOSTER CARE: KANSAS




                      Inspector General


                       AUGUST 2003
                      OEI -07-00-00640
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evalu ation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the department,
the Congress, and the public. The findings and recommendations contained in the
inspections reports generate rapid, accurate, and up- to- date information on the efficiency,
vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees State Medic aid
fraud control units, which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal
support in OIG's internal operations. The OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising under
the Civil False Claims Act, develops and monitors corporate integrity agreements, develops
model compliance plans, renders advisory opinions on OIG sanctions to the health care
c o m m u n ity, and issues fraud alerts and other industry guidance.
E X E C U T I V E                                             S U M M A R Y 




                              OBJECTIVE
                              To determine whether sampled children in the Kansas foster care
                              program receive health care services.


                              BACKGROUND
                              Compared with children from the same socioeconomic background,
                              children in foster care suffer much higher rates of serious emotional
                              and behavioral problems, chronic physical disabilities, birth defects,
                              and developmental delays. Kansas had 6,569 children in foster
                              care at the end of the Federal fiscal year 2000, and utilized a
                              statewide public-private partnership for the delivery of child
                              welfare services. Kansas is one of a series of States chosen to
                              represent a diverse cross-section of foster care nationwide. The
                              Administration for Children and Families (ACF) has regulatory
                              oversight of the Title IV-E foster care programs. The Centers for
                              Medicare & Medicaid Services (CMS) is responsible for oversight of
                              individual State Medicaid programs.

                              All Title IV-E children in the Kansas foster care program are
                              eligible for Medicaid. Federal Early and Periodic Screening,
                              Diagnosis, and Treatment (EPSDT) guidelines require each State to
                              provide coverage for preventive health care services to Medicaid-
                              eligible individuals under the age of 21, as outlined in
                              Section 1905(r) of the Social Security Act (the Act). In addition,
                              Sections 472(h) and 1902(a)(10)(A)(i)(I) of the Act require States to
                              provide Medicaid, or equivalent health insurance coverage, to
                              children eligible to receive Title IV-E foster care program
                              maintenance funds.

                              This inspection is based on information gathered from multiple
                              sources: reviews of Federal and State policies; analysis of child-
                              specific Medicaid claims data and case file documentation for
                              50 randomly-sampled children; interviews with foster care
                              providers (e.g., foster parents and residential care facility staff) and
                              caseworkers for the children in our sample; interviews with Kansas
                              State agency officials; and telephone calls to dental office staff to
                              validate foster care providers’ concerns regarding the lack of
                              available Medicaid dental providers. This study did not address
                              follow-up care or the appropriateness of ongoing health care in
                              meeting the needs of foster children.


O E I - 07 - 00 - 0 0 6 4 0   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : KA N S A S   i
E   X   E      C      U       T       I   V   E         S      U         M     M     A      R     Y



                                              FINDINGS
                                              All sampled children have Medicaid coverage and claims for
                                              services
                                              In accordance with Federal law and State regulations, all of the
                                              sampled children have Medicaid coverage. All 50 children had at
                                              least one claim for services through Medicaid.

                                              Ninety percent of sampled children received EPSDT
                                              Medicaid examinations, and 82 percent received EPSDT
                                              dental examinations, in accordance with State guidelines
                                              Ninety percent (45/50) of the sampled children were receiving
                                              medical services that met the current EPSDT periodicity time
                                              frames. Eighty-two percent (32/39) of children required to receive
                                              dental services received a dental examination within established
                                              EPSDT guidelines, although foster care providers expressed
                                              difficulties locating dentists willing to accept Medicaid patients.

                                              Eighty-two percent of sampled children received initial
                                              medical examinations within required timeframes
                                              Of the 39 children in our sample who had initial placements during
                                              our study time period, 82 percent (32) had a Medicaid paid claim or
                                              case file documentation indicating a medical examination took
                                              place within 30 days of placement.

                                              All sampled children received mental health services
                                              The Kansas IV-E foster care program State plan requires that an
                                              individual case plan, including an assessment of the child’s mental
                                              health needs, be developed for each child in foster care within
                                              30 days of their entry into State custody. All children in our sample
                                              had a completed case plan and Medicaid claims for mental health
                                              services.




        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : KA N S A S   ii
E   X   E      C      U       T       I   V   E         S      U         M     M     A      R     Y




                                              Forty-three percent of foster care providers in our sample
                                              reported never receiving a medical history for the child in
                                              their care
                                              Sections 422(b)(10)(B)(ii) and 475(5)(D) of the Act provide for a case
                                              review system and procedures for ensuring that a child’s health
                                              record is reviewed, updated, and supplied to the foster care
                                              provider. Forty-three percent (20/46) of foster care providers
                                              interviewed reported never receiving a medical history for the
                                              sample child in their care. However, 12 out of 20 caseworkers for
                                              these children reported compiling or receiving a medical history.


                                              RECOMMENDATIONS
                                              To ensure that children in foster care have access to and receive the
                                              most appropriate health care services, we recommend that:

                                              ACF work with the Kansas Department of Social and
                                              Rehabilitation Services to promote the importance of obtaining
                                              medical histories for children in foster care and providing this
                                              information to foster parents.

                                              CMS work with the Kansas Department of Social and
                                              Rehabilitation Services to increase the number of Medicaid health
                                              care providers willing to provide services to children in foster care,
                                              and provide case workers and foster care providers with current
                                              lists of Medicaid providers willing to treat children in foster care.


                                              AGENCY COMMENTS
                                              ACF indicated the background provided in this report was useful.
                                              ACF also notes that they are working with the Kansas Department
                                              of Social and Rehabilitation Services to promote the importance of
                                              obtaining medical histories for children in foster care, and have
                                              included steps necessary to gather medical information and provide
                                              the information to foster parents. We incorporated suggested
                                              terminology changes into this document. The full text of ACF’s
                                              comments to the draft report is located in Appendix D.

                                              CMS concurs, in part, with our recommendations and points out
                                              that the Medicaid program is State-administered within broad
                                              Federal guidelines. As such, CMS does not have the ability to
                                              directly impact the numbers of providers participating in the

        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : KA N S A S   iii
                              Kansas Medicaid program or the collection, maintenance, and
                              distribution of lists of participating providers. However, CMS
                              indicates they are available to provide technical assistance to the
                              State to promote these processes. The full text of CMS’s comments
                              to the draft report is located in Appendix E.




O E I - 07 - 00 - 0 0 6 4 0   C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : KA N S A S   iv
T A B L E                           O F                  C O N T E N T S 




                     EXECUTIVE SUMMARY ................................................................................. i


                     INTRODUCTION ............................................................................................ 1



                     FINDINGS ...................................................................................................... 8


                                All sa mpled children have Medicaid coverage and claims for 

                                services ............................................................................................... 8


                                High percentages of sampled children received EPSDT medical 

                                and dental examinations.................................................................... 8


                                Eighty-two percent of sampled children received initial medical 

                                examinations within required timeframes ...................................... 11


                                All sampled children received mental health services .................... 11


                                Forty-three percent of sampled foster care providers never 

                                received a medical history for the child in their care ...................... 12



                     RECOMMENDATIONS ................................................................................. 13



                     APPENDICES .............................................................................................. 15


                                Appendix A: Kansas Foster Care and Medicaid Programs ............. 15


                                Appendix B: Detailed Demographic Data ........................................ 16


                                Appendix C: Detailed Claims Data .................................................. 18


                                Appendix D: Agency Comments - ACF ............................................ 20


                                Appendix E: Agency Comments - CMS............................................ 24



                     ACKNOWLEDGMENTS................................................................................ 26





O E I - 07 - 00 - 0 0 6 4 0         C H I L D R E N’ S U S E   OF   H EALTH C ARE S E R V I C E S WH I L E   IN   F O S T E R CA R E : KA N S A S   v

I N T R O D U C T I O N 




                              OBJECTIVE
                              To determine whether sampled children in the Kansas foster care
                              program receive health care services.


                              BACKGROUND
                              Currently, there are an estimated 565,000 children in foster care
                              nationwide, 1 many of whom are reportedly in poor health. To
                              determine if children in foster care are receiving mandated health
                              care services, we selected a series of States for review. 2 The States
                              were chosen to represent a diverse cross-section of foster care
                              nationwide. Kansas was selected because of its child welfare
                              population size, State location, Medicaid fee-for -service coverage for
                              children in foster care, and statewide public-private partnership for
                              child welfare service delivery. Kansas had 6,569 children in foster
                              care at the end of the Federal fiscal year 2000, based on the most
                              recent Federal data available at the time of our review. 3 The
                              Administration for Children and Families (ACF) has regulatory
                              oversight of the Title IV-E foster care program, including State
                              plans to ensure State foster care programs are operating within
                              Federal guidelines.

                              Compared with children from similar socioeconomic backgrounds,
                              children in foster care suffer much higher rates of serious physical
                              and psychological problems.4 Dental problems are prevalent in the
                              foster care population and physical health problems (e.g., delayed
                              growth and development, malnutrition, and asthma) affect 30 to
                              40 percent of children in the child welfare system. 5




                              1   Retrieved November 1, 2002, from
                                  http://www.acf.dhhs.gov/programs/cb/dis/afcars/cwstats.html
                              2   Other States selected for review are: Georgia, Illinois, New Jersey, New York,
                                  North Dakota, Oregon, and Texas.
                              3   FY 2000 Foster Care Entries, Exits, and In Care on the Last Day. Retrieved
                                  May 20, 2003, from http://www.acf.hhs.gov/programs/cb/dis/talbes/entryexit.htm.
                              4   Health Care Issues for Children in Foster Care, March 25, 2002. Retrieved
                                  May 20, 2002, from http://www.casey.org/cnc/documents/health_care_issues.pdf.
                              5   Fact sheet: The Health of Children in Out-of-Home Care. Child Welfare League of
                                  America. Retrieved May 17, 2003, from
                                  http://www.cwla.org/programs/health/healthcarecwfact.htm.


O E I - 07 - 00 - 0 0 6 4 0   C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   1
I   N   T    R       O      D         U   C   T    I    O       N


                                              Children in foster care have greater health care needs, yet many
                                              foster care providers (e.g., foster parents and residential care
                                              facility staff) report having difficulty finding health care
                                              professionals who are willing to care for these children. 6 The
                                              health care available for children in foster care is often
                                              characterized by lack of access; lack of information sharing among
                                              health care providers; and long delays in obtaining services.7
                                              Furthermore, studies have shown low percentages of children in
                                              foster care are actually receiving services. One report states that
                                              less than one-third of children in the child protective system
                                              nationwide received mental health services in 1995. 8 A General
                                              Accounting Office (GAO) report released in July 2001 states that
                                              available data from short-range studies show that the percentage of
                                              children in the general population receiving Early Periodic
                                              Screening, Diagnosis, and Treatment (EPSDT) services is very low. 9

                                              The EPSDT program is designed to screen for, diagnose, and treat
                                              medical conditions that might otherwise go undetected or
                                              untreated. Preventive services for the early detection of disease
                                              have been associated with substantial reductions in morbidity and
                                              mortality. The benefits of incorporating preventive health care into
                                              medical practice have become apparent in recent years, as cases of
                                              previously common and debilitating medical conditions have
                                              declined in number following the introduction of effective
                                              preventive health care services. 10 Preventive dental care is also
                                              included as part of EPSDT. A journal article concludes that
                                              adherence to American Dental Association recommendations for




                                              6   Chernoff, R. et. Al., Assessing the Health Status of Children Entering Foster Care,
                                                  Pediatrics, 93:2, 1994.
                                              7   Health Care of Young Children in Foster Care. Pediatrics, 109:3, 2002. Retrieved
                                                  May 12, 2003, from http://www.aap.org/policy/re0054.html.
                                              8   Ensuring the Healthy Development of Foster Children, New York State Permanent
                                                  Judicial Commission on Justice for Children, 1999.
                                              9   Medicaid: Stronger Efforts Needed to Ensure Children’s Access to Health
                                                  Screening Services. General Accounting Office, GAO-01-749, July 2001.
                                              10  Guide to Clinical Preventive Services, 2nd edition, U.S. Preventive Services Task
                                                  Force, 1996. Retrieved March 12, 2003 from
                                                  http://hstat.nlm.nih.gov/hq/Hquest/db/local.gcps.cps/screen/Browse/s/44098/cmd/H
                                                  F/action/GetText?IHR=CHI.


        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   2
I   N   T    R       O      D         U   C   T    I    O       N


                                              preventive behaviors over the long-term yields greater benefits
                                              than doing so over the short term. 11

                                              Medicaid for Children in Foster Care
                                              Kansas provides Medicaid coverage to all children in Title IV-E
                                              foster care, as well as other eligible children. Sections 472(h) and
                                              1902(a)(10)(A)(i)(I) of the Social Security Act (the Act) require
                                              States to provide Medicaid or equivalent health insurance coverage
                                              for children eligible to receive Title IV-E foster care maintenance
                                              funds. Federal EPSDT guidelines require each State to provide
                                              coverage for comprehensive and preventive child health services to
                                              Medicaid-eligible individuals under the age of 21, as outlined in
                                              Section 1905(r) of the Act. Within broad national guidelines, each
                                              State establishes its own eligibility standards for the Medicaid
                                              program; determines the type, amount, duration, and scope of
                                              Medicaid services; sets the rate of payment for services to Medicaid
                                              patients; and administers its own Medicaid program. 12 In 2000,
                                              Medicaid payments for children in foster care totaled $3.3 billion
                                              nationally.13 Kansas Medicaid expenditures to provide health care
                                              services to children in foster care totaled $10.8 million in 1999. The
                                              Centers for Medicare & Medicaid Services (CMS) is responsible for
                                              Federal oversight of individual State Medicaid programs.

                                              States design their own Medicaid programs and establish EPSDT
                                              guidelines in accordance with Federal requirements to provide
                                              coverage for preventive child health services to all Medicaid-eligible
                                              individuals under the age of 21. 14 State EPSDT programs must
                                              provide medical, hearing, vision, and dental screenings, and other
                                              necessary health care and treatment at intervals established by the
                                              State that meet reasonable standards of practice published by
                                              recognized health care organizations. Kansas established the Kan
                                              Be Healthy program to meet Federal EPSDT requirements. The
                                              current EPSDT periodicity schedule, established in August 2001,
                                              for the Kan Be Healthy program, requires that medical screenings
                                              occur at: birth; 1, 2, 4, 6, 9, 12, 15 and 18 months of age; 2, 3, 4, 5, 6,



                                              11   Journal of Dental Research, March 2003; 82 (3): 223-7

                                              12   Retrieved May 20, 2003 fromhttp://cms.hhs.gov/Medicaid/eligibility/criteria.asp.

                                              13   Medicaid Statistical Information System (MSIS) Report Fiscal 2000: Illinois. 

                                                   Retrieved May 20, 2003 from http://www.cms.gov/medicaid/msis/00tx.pdf

                                              14   Section 1905(r) of the Social Security Act.



        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   3
I   N   T    R       O      D         U   C   T    I    O       N


                                              8, and 10 years of age; and annually between the ages of 10 and 21.
                                              After age 3, children receiving EPSDT services are required to
                                              receive a vision screening every 2 years and a hearing screening
                                              every 3 years. Vision and hearing screenings are conducted as part
                                              of EPSDT medical screenings. Dental screenings are conducted
                                              separately. Under the public-private partnership, foster care
                                              contractors are responsible for ensuring that all children in foster
                                              care receive EPSDT screenings. Section 6141.02 of the Kansas
                                              Medical Services Manual specifies that information provided to
                                              program beneficiaries must include information about how Kan Be
                                              Healthy services can be obtained.

                                              In addition, Section 471(a)(22) of the Act requires States to develop
                                              a State plan that includes standards to ensure that all children in
                                              foster care placements are provided quality services that protect
                                              their safety and health. Sections 422(b)(10)(B)(ii) and 475(5)(D) of
                                              the Act require procedures to ensure that a child’s health record is
                                              reviewed, updated, and supplied to the foster care provider at the
                                              time of placement. According to Section 475(1)(C) of the Act, health
                                              records should include, to the extent available and accessible, the
                                              names and addresses of the child’s health providers, a record of the
                                              child’s immunizations, the child’s known medical problems, the
                                              child’s medications, and any other relevant health information
                                              concerning the child, determined to be appropriate by the State
                                              agency. The Kansas foster care program policies require that each
                                              child receive a medical examination within 30 days of entering
                                              State custody and that a case plan be developed for each child
                                              within this same 30 days. The case plan must include an
                                              assessment of the child’s mental health needs and the services
                                              required to meet those needs.


                                              METHODOLOGY
                                              This study focused on the receipt of medical and dental health care
                                              services within EPSDT guidelines; requirements for initial and
                                              comprehensive health screenings upon entry into foster care; case
                                              plan assessments of mental health needs and services; and the
                                              provision of medical information to foster care providers. This
                                              study did not address follow-up care or the appropriateness of
                                              ongoing health care in meeting the needs of children in foster care.


        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   4
I   N   T    R       O      D         U   C   T    I    O       N


                                              This inspection is based on information gathered from multiple
                                              sources: reviews of Federal and State policies; analysis of child-
                                              specific Medicaid claims data and case file documentation for
                                              50 randomly-sampled children in foster care; interviews with
                                              caseworkers and foster care providers for each of the 50 children in
                                              our sample; interviews with Kansas State agency officials; and
                                              telephone calls to dental office staff to validate foster care providers’
                                              concerns regarding the lack of available Medicaid dental providers.

                                              Reasons for State Selection
                                              Kansas was selected due to its small size, centralized child welfare
                                              system, geographic location, fee-for -service payment of Medicaid
                                              health care services (Kansas does not utilize managed care for
                                              children in foster care), and its statewide public-private partnership
                                              for provision of child welfare services. The Kansas Department of
                                              Social and Rehabilitation Services (SRS) is responsible for the
                                              welfare of children in State custody. However, instead of State,
                                              county, or local offices providing direct service delivery in child
                                              welfare cases, private contractors provide foster care and adoption
                                              services. An overview of the Kansas public-private partnership is
                                              provided in Appendix A.

                                              Sample
                                              Children who met the following criteria were included in the study
                                              population: (1) were in foster care on June 14, 2002; (2) resided in
                                              Kansas; and (3) had been in continuous out-of-home foster care
                                              placements for at least 6 months. SRS provided us with a list of the
                                              3,766 children (of the 6,569 children in foster care at the end of
                                              Federal fiscal year 2000) who met these criteria. We selected a
                                              simple random sample of 50 children in foster care in Kansas,
                                              based on this defined population, which allowed us to formulate an
                                              overview of their use of health care services. Appendices B and C
                                              provide information on the children included in our sample.

                                              Review of State Policy, Medicaid Data, and Case File Documentation
                                              Policy Review - We reviewed Federal and Kansas foster care and
                                              Medicaid policies. All children in foster care in Kansas are eligible
                                              for Medicaid services, regardless of their Title IV-E foster care or
                                              other eligibility status (e.g., Temporary Assistance for Needy
                                              Families). Federal law relating to EPSDT requires that States
                                              meet reasonable standards of medical and dental practice, as


        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   5
I   N   T    R       O      D         U   C   T    I    O       N


                                              determined by the State after consultation with recognized medical
                                              and dental organizations. Kansas’s Kan Be Healthy program
                                              satisfies the Federal ESPDT requirement. We used Kan Be
                                              Healthy policy guidelines to determine whether children in foster
                                              care received health care services within required time frames.

                                              Medicaid Claims Data Review - SRS provided us with 3 years of
                                              Medicaid claims histories for each of the children in our sample.
                                              The data included claims for physician, dental, pharmaceutical, and
                                              mental health services paid between June 1, 1999, and
                                              May 31, 2002. We paid particular attention to the types of health
                                              and mental health services, dates of service, settings where the
                                              services were provided, and diagnoses, where available. We
                                              included only those Medicaid claims after the child’s most recent
                                              entry into foster care and any claims prior to entry that were
                                              pertinent in establishing periodicity for services (i.e., Kan Be
                                              Healthy).

                                              Case File Documentation Review - We requested and reviewed case
                                              file documentation from local offices for all the children in our
                                              sample. Information requested included documentation of medical
                                              and mental health services provided, duration of the child’s stay in
                                              foster care, and information regarding the child’s general well-
                                              being.

                                              Interviews
                                              Foster Care Provider Interviews - We use the term “foster care
                                              provider” to refer to a foster parent or a staff member of a
                                              residential facility who is responsible for the child. We conducted
                                              structured interviews with 46 of the 50 foster care providers (20 in
                                              person and 26 by telephone) responsible for the children in our
                                              sample between July 31 and August 28, 2002. After repeated
                                              attempts, we were unable to interview four foster care providers.
                                              The four children, whose foster care providers we were unable to
                                              interview, were not included in certain comparative analyses, but
                                              were included in our Medicaid claims data analysis. Our
                                              interviews with foster care providers focused on Medicaid programs
                                              and services available, training related to the health and well-
                                              being of children, and procuring health care services for the
                                              children included in our sample.



        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   6
I   N   T    R       O      D         U   C   T    I    O       N


                                              Caseworker Interivews - We conducted structured interviews with
                                              each child’s caseworker either in person (22) or by telephone (26)
                                              between July 29 and September 6, 2002. Two caseworkers were
                                              responsible for more than one child, giving us a total of
                                              48 caseworkers for the 50 children in our sample. Each of these
                                              interviews focused on the caseworker’s understanding of the
                                              Medicaid programs and services available, training related to the
                                              health and well-being of children, their experience accessing
                                              services for the sampled child, and any barriers to health care faced
                                              by the child. Each caseworker spoke specifically about the sampled
                                              child’s case, and generally about his or her own experiences
                                              working in foster care. We analyzed the caseworkers’ responses
                                              and compared them to those of the foster care providers, noting any
                                              consensus or disagreement within and between the two groups.

                                              Discussions with State Agency Officials - To enhance our
                                              understanding of the State’s foster care and Medicaid programs, we
                                              consulted, both in person and by telephone, with SRS officials who
                                              are responsible for the administration of both programs in the State
                                              of Kansas. Our discussions covered a wide spectrum of
                                              information, including the overall provision of Medicaid services for
                                              children in foster care, the Kan Be Healthy (EPSDT) program,
                                              Kansas’ public-private partnership, and Medicaid claims for
                                              children in foster care.

                                              Dental Provider Contacts - During our interviews with foster care
                                              providers, they reported difficulty scheduling dental appointments
                                              for children in their care. To validate these difficulties, we
                                              contacted the offices of dental care providers. At our request, SRS
                                              prov ided us with a list of 26 dental providers whom they believed
                                              accepted Medicaid patients in 2 areas of the State where foster care
                                              providers and caseworkers reported the most difficulty scheduling
                                              dental appointments for children in their care. We called the offices
                                              of all 26 dental providers and asked them whether they were
                                              accepting new Medicaid patients and, if so, when their first
                                              available appointment was for a routine dental examination.

                                              This inspection was conducted in accordance with the Quality
                                              Standards for Inspections issued by the President’s Council on
                                              Integrity and Efficiency.



        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   7
F I N D I N G S


               All sampled children have Medicaid                                                      Federal law requires States to

                     coverage and claims for services                                                  provide Medicaid or equivalent
                                                                                                       health insurance coverage to
                              children eligible to receive Title IV-E foster care program
                              maintenance funds. Within broad national guidelines, each State
                              establishes its own Medicaid-eligibility standards. Children in
                              foster care in Kansas are eligible for all health care services
                              provided through the Medicaid program, including EPSDT.

                              Our review of Medicaid claims and interview data indicates that all
                              50 children in our sample had Medicaid coverage. Our analysis of
                              the Medicaid claims data revealed that each sampled child had paid
                              health care claims since entering foster care. Overall, foster care
                              providers were aware of the availability of Medicaid services for
                              children in their care and were receiving monthly Medicaid cards
                              for them. The 50 children in our sample had received a total of
                              5,853 Medicaid health care services while in foster care since
                              June 1, 1999, as outlined in the following chart.



                                               Table 1: Number and Type of Medicaid Claims
                                                        for 50 Children in the Sample
                                                                  Number of children    Total number of
                                            Claim type
                                                                with at least one claim     claims*
                                        Physician office                                                      50                                    2,126

                                          Mental Health                                                       50                                    1,916

                                           Prescriptions                                                      49                                    1,129

                                                 Dental                                                       37                                    675

                                         Hospitalization                                                      5                                      7

                                                  Total                                                                                             5,853
                              *A detailed list of services for each child is located in Appendix C.
                              Source: OIG analysis of Kansas Medicaid claims data



   Ninety percent of children in the sample                                                            Federal EPSDT guidelines
    received routine physical examinations,                                                            require each State to provide

      and 82 percent received EPSDT dental                                                             physical, mental, vision, hearing,
                                                                                                       and dental screenings, and other
     examinations, in accordance with State
                                                                                                       necessary health care and
                                                                 guidelines
                                                                                                       treatment, as needed, at


O E I - 07 - 00 - 0 0 6 4 0   C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S           8
F   I   N    D       I    N       G   S


                                          intervals established by the State. These services must meet
                                          reasonable standards of practice published by recognized health
                                          care organizations and are designed to prevent, diagnose, and treat
                                          medical conditions that might otherwise go undetected or
                                          untreated. Kansas’ Kan Be Healthy program fulfills the Federal
                                          EPSDT requirements.

                                          Physical Examinations
                                          A review of 3 years of Medicaid claims data and case file
                                          documentation showed that 90 percent (45/50) of the children in
                                          this study were receiving EPSDT services within the time frames
                                          established by Kansas at the time of our review. For the five
                                          children in foster care who did not have current EPSDT services,
                                          either the caseworker, foster care provider, or both stated that the
                                          child did, in fact, receive EPSDT services; however, we were not
                                          provided with medical documentation to support receipt of those
                                          services.

                                          While it is difficult to pinpoint specific practices that enabled
                                          Kansas to meet established guidelines for providing required
                                          EPSDT services to many of the sampled children in foster care,
                                          evidence collected suggests two factors may be instrumental. First,
                                          the Kansas Medicaid program distributes monthly Medicaid cards
                                          to each Medicaid client; these cards are printed with the due date of
                                          the next required Kan Be Healthy (EPSDT) screen. Foster care
                                          providers indicated the information printed on the Medicaid card
                                          was helpful. Also, caseworkers conduct monthly visits to each
                                          foster child’s placement, during which they monitor the child’s
                                          health care and receipt of required services. Caseworkers must
                                          complete the form (CFS 3050C) every 6 months that includes a
                                          section verifying that the child’s most recent Kan Be Healthy
                                          screening is correct (i.e., received within periodicity guidelines).

                                          Dental Examinations
                                          Kansas EPSDT guidelines require every child in foster care over
                                          3 years of age to have an annual dental examination. Of the
                                          40 children in our sample 3 years of age and older, 98 percent
                                          (39/40) had at least 1 oral evaluation since their entry into foster
                                          care, and 82 percent (32/39) received an evaluation within the past
                                          year. Six children who were overdue for required services had
                                          received previous dental services, such as resins and sealants. The


        O E I - 07 - 00 - 0 0 6 4 0       C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   9
F   I   N    D       I    N       G   S


                                          one child with no Medicaid claim for an oral evaluation had no
                                          other dental claims, and the child’s foster care provider was one of
                                          the four non-respondents whom we were unable to interview.

                                          One possible reason that the percentage of children receiving
                                          EPSDT dental services is lower than the percentage receiving other
                                          EPSDT services is because, according to interview data, foster care
                                          providers experience difficulty locating dentists willing to accept
                                          Medicaid patients. Foster care providers also reported difficulty
                                          scheduling appointments with dental providers participating in the
                                          Medicaid program. Of the 31 foster care providers interviewed who
                                          had attempted to schedule a dental appointment for the foster child
                                          in their care, 12 reported having difficulty locating a dentist who
                                          would accept Medicaid patients. Of the 19 foster care pr oviders
                                          who indicated they did not have a problem locating a dentist, 6
                                          foster care providers reported having difficulty scheduling an
                                          appointment.

                                          Foster care providers reported that participating dentist’s offices
                                          are often geographically far from the foster care provider’s
                                          residence and that very few dentists were accepting new Medicaid
                                          patients. They reported that the lack of dental providers willing to
                                          accept Medicaid patients was acute in two geographic areas of the
                                          State - one large and one small community. At our request, the
                                          SRS created a list of dental providers that it believed accepted
                                          Medicaid patients in these two communities. The list provided by
                                          SRS contained the names of 24 dentists in the large community
                                          (out of 105 total dentists) and 2 dentists in the small community
                                          (out of 7 total dentists).

                                          To validate the problems that foster care providers reported, we
                                          called the offices of the 26 dentists listed and asked if the dentist
                                          was accepting new Medicaid patients, and if so, when the first
                                          available appointment could be scheduled. These contacts revealed
                                          that only 6 of the 24 dental providers in the large community were
                                          accepting new Medicaid patients. Both listed dentists in the small
                                          community were accepting new Medicaid patients. An appointment
                                          for a routine dental examination with any of the eight dentists
                                          accepting new Medicaid patients could be scheduled within 3 days
                                          to 2 months, depending on the provider. Given that only 8 of the
                                          dentists who accepted Medicaid (out of 112 dentists total in the


        O E I - 07 - 00 - 0 0 6 4 0       C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   10
F   I   N     D       I    N       G    S


                                            2 communities) were accepting new Medicaid patients, finding a
                                            dentist willing to treat a child on Medicaid is problematic.



                                                                                                             Federal law requires States to
        Eighty-two percent of sampled children
                                                                                                             develop a State plan that includes
            received initial medical examinations                                                            standards to ensure that children in
                                                                                                             foster care placements are provided
                                       within required timeframes
                                                                                                             quality services that protect their
                                            safety and health. The Kansas foster care program, as outlined in
                                            the Kansas IV-E foster care program State plan, requires that
                                            children in foster care receive a medical examination within 30
                                            days of entering State custody. Thirty-nine children in our sample
                                            had initial placements between June 1999 and November 2001 (the
                                            time period covered by our claims data less six months, due to the
                                            time it takes to submit and process some claims). Eighty-two
                                            percent (32/39) of these children had a Medicaid paid claim or case
                                            file documentation indicating a medical examination took place
                                            within 30 days of placement.



                                   All sampled children received                                                 While there are no requirements in
                                                                                                                 Title IV-E of the Act that address
                                            mental health services                                               the provision of mental health
                                            services to children in foster care specifically, Section 471(a)(22) of
                                            the Act requires States to develop and implement standards to
                                            ensure that all children in foster care placements are provided
                                            quality services that protect their safety and health. The Kansas
                                            foster care program policies require that a case plan be developed
                                            for each foster child within 30 days of a child entering State
                                            custody. The case plan requires an assessment of the child’s mental
                                            health needs and the services required to meet those needs.
                                            Assessments for mental health needs are important because
                                            children in foster care are more likely to suffer from mental health
                                            problems than other children. 15




                                            15 Health Care Issues for Children in Foster Care, March 25, 2002.
                                               RetrievedOctober 17, 2002, from
                                               http://www.casey.org/cnc/documents/health_care_issues.pdf.


         O E I - 07 - 00 - 0 0 6 4 0        C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   11
F   I   N    D       I    N       G   S


                                          All children in our sample had a completed case plan that
                                          addressed the child’s mental health needs, and all children in our
                                          sample had at least one Medicaid claim for some type of mental
                                          health service. We did not evaluate the adequacy of the mental
                                          health assessments or services provided.

                                                                                                                                Federal law requires that a
              Forty-three percent of foster care providers                                                                      child’s health record is
    reported never receiving a medical history for the                                                                          reviewed, updated, and
                           sampled child in their care                                                                          supplied to the foster care
                                                                                                                                provider when they are
                                          placed in foster care. Twenty of the 46 foster care providers
                                          interviewed reported never receiving a medical history for the
                                          sampled child in their care. However, caseworkers for 12 out of
                                          these 20 foster care providers reported compiling or receiving a
                                          medical history. Two out of the 12 foster care providers who did not
                                          receive the medical history available to the caseworker reported
                                          being unaware of documented mental health problems facing the
                                          foster child in their care. A child’s health may be compromised if
                                          the foster care provider is unaware of the child’s family medical
                                          history, chronic physical health pr oblems, mental health problems,
                                          or other medical needs.

                                          In exploring why medical histories were not shared with foster care
                                          providers, several reasons were identified.

                                          o       The caseworker was a student intern.

                                          o	      The child’s case changed from foster care to adoption status,
                                                  and the adoption caseworker had assumed that the foster care
                                                  caseworker provided a medical history to the foster care
                                                  providers.

                                          o       The caseworker lost the medical record.

                                          The failure to provide a medical history is particularly problematic
                                          because the foster care providers whom we questioned indicated
                                          that caseworkers are the most important source of information for
                                          them regarding the health care needs of children in their care.

                                          Fifty-nine percent (27/46) of foster care providers interviewed
                                          indicated that when they have questions about accessing medical
                                          services for the foster child, they would ask the child’s caseworker



        O E I - 07 - 00 - 0 0 6 4 0       C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   12
                              first. Less common cited sources included the child’s primary care
                              physician or staff at an SRS or Medicaid office.


                              RECOMMENDATIONS
                              To ensure children in foster care have access to and receive the
                              most appropriate health care services, we recommend that:

                              ACF work with the Kansas Department of Social and
                              Rehabilitation Services to:

                              o	      Promote the importance of obtaining medical histories for
                                      children in foster care and providing this information to foster
                                      parents

                              CMS work with the Kansas Department of Social and
                              Rehabilitation Services to:

                              o	      Increase the number of Medicaid health care providers willing
                                      to provide services to children in foster care

                              o	      Develop and maintain current and accurate lists of Kansas
                                      health care providers participating in the Medicaid program by
                                      area or community

                              o	      Provide case workers and foster care providers with current
                                      lists of Medicaid providers willing to treat children in foster
                                      care


                              AGENCY COMMENTS
                              ACF indicated the background provided in this report was useful.
                              ACF notes it found that only 78 percent of the children included in
                              the Kansas Children and Family Services Review, conducted in
                              August 2001, received medical services, but that differences in its
                              review and Office of Inspector General findings may be explained
                              by the use of different methodologies. ACF also notes four
                              conclusions resulting from its review. The first two, related to an
                              insufficient number of dental care providers that accept Medicaid
                              and foster parents not always being provided with timely medical
                              information for the children in their care, were similar to our
                              findings. ACF is working with the Kansas Department of Social
                              and Rehabilitation Services to promote the importance of obtaining
                              medical histories for children in foster care and have included steps

O E I - 07 - 00 - 0 0 6 4 0   C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   13
C   O   N       C      L      U       S   I   O    N       /    R        E      C      O      M       M      E      N        D       A     T     I    O      N      S


                                              necessary to gather medical information and provide the
                                              information to foster parents as part of a Program Improvement
                                              Plan. The latter two conclusions, related to foster parent
                                              reimbursement to transport children for medical care and the need
                                              for improvements in the provision of mental health services,
                                              focused on issues outside the scope of our study. The full text of
                                              ACF’s comments to the draft report is located in Appendix D.

                                              The CMS concurs, in part, with our recommendations and points
                                              out that the Medicaid program is State-administered within broad
                                              Federal guidelines. As such, CMS does not have the ability to
                                              directly impact the numbers of providers participating in the
                                              Kansas Medicaid program or the collection, maintenance, and
                                              distribution of lists of participating providers. However, CMS
                                              indicates they are available to provide technical assistance to the
                                              Kansas Department of Social and Rehabilitation Services, the State
                                              agency responsible for both the Medicaid and Title IV-E foster care
                                              programs, to promote efforts to ensure children in foster care have
                                              adequate access to health care services. The full text of CMS’s
                                              comments to the draft report is located in Appendix E.




        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S       14
        A P P E N D I X ~ A 


Kansas Foster Care and Medicaid Programs

                                      The Kansas Department of Social and Rehabilitation Services is
                                      responsible for all children in State custody in Kansas. Within that
                                      Department, the Division of Children and Family Policy is
                                      specifically responsible for providing child protective services. The
                                      child welfare system is administered through a public-private
                                      partnership, in which the State is ultimately responsible for the
                                      well-being of children in State custody, but private contractors
                                      provide direct services, instead of State or county offices. Kansas
                                      has five contracted agencies, one in each region of the State, who in
                                      turn subcontract with other agencies to provide services at the
                                      community level. Each agency is paid a flat fee, plus an additional
                                      amount for each child whom it serves. State contracts with
                                      participating agencies are awarded every 4 years and renewed
                                      annually.

                                      Health care for Kansas children in foster care is provided primarily
                                      through Medicaid, and all Kansas children in foster care are status-
                                      eligible for Medicaid. There are no special health guidelines or
                                      coverage exceptions for children in foster care; they follow the same
                                      rules as the general Medicaid population. Although Medicaid
                                      managed care is available in Kansas, managed care programs are
                                      not used to provide benefits to children in foster care. Each child in
                                      foster care is issued a monthly Medicaid card that must be shown to
                                      access benefits, and these cards are printed with the date of the
                                      child’s most recent Kan Be Healthy screening and the date that the
                                      child’s next screening is due. Other sources of health care funding
                                      for children in foster care in Kansas include Head Start, public
                                      health clinics, and any private health insurance a child’s biological
                                      parents might have.




        O E I - 07 - 00 - 0 0 6 4 0   C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   15
         A P P E N D I X ~ B

Detailed Demographic Data

                                           The table below is merely descriptive in nature and describes the
                                           demographic characteristics of each sampled child and his or her
                                           foster care placement history (the first 6 columns) at the end of
                                           May 2002.



                                                              Months                  Months
                             Entries Months Placements                  Caseworkers
             Age Placement                                   since last             caseworker
    ID Sex                 into foster since last since last             since last
           (years) Setting                                   placement               with case
                             care (1) entry (2) entry (3)                  entry
                                                                 (2)                    (2)
     1   F         1           Family           1                      7                     1                   10                        1                     10
     2   F         4           Family           1                     23                     1                   25                        1                      3
     3   M        14           Family           1                      7                     1                    9                        2                      4
     4   F        17          Kinship           1                     37                     1                   37                        2                      2
     5   F         6           Family           1                     44                     1                   46                        2                      3
     6   F         4          Kinship           1                      8                     1                   11                        2                      7
     7   F         1           Family           1                     15                     1                   17                        3                      8
     8   F         8           Family           1                     13                     2                    8                        1                     14
     9   M         9           Family           1                      8                     2                    9                        1                     11
    10   M         2           Family           1                     15                     2                    7                        1                     18
    11   F        10           Family           1                     27                     2                   26                        1                     28
    12   F        16           Family           1                     12                     2                   13                        1                     14
    13   F        15          Kinship           1                     14                     2                    5                        2                     16
    14   M         3           Family           1                     21                     2                   14                        2                      4
    15   M         4           Family           1                     34                     2                   36                        2                     13
    16   F         2           Family           1                     23                     2                   25                        2                      5
    17   M         1         Residential        1                     13                     2                   13                        2                      7
    18   F         9           Family           2                     20                     2                   10                        3                     10
    19   M         9           Family           1                     33                     2                   36                        3                     15
    20   F         1           Family           1                     17                     2                    3                        3                     12
    21   F         6           Family           1                     21                     2                   24                        4                     11
    22   M         3          Kinship           1                     30                     2                   21                        4                     21
    23   F        11           Family           1                     28                     3                   25                        2                     25
    24   F         3           Family           1                     20                     3                    9                        4                     18
    25   F        17          Kinship           1                     15                     3                   13                        5                      9
    26   F        13        Secure Care         1                      7                     4                    3                        1                      9
    27   M         4          Kinship           1                     18                     4                   18                        2                      3
    28   F         1           Family           1                     15                     4                   15                        2                      7
    29   M        18        Independent         1                     16                     4                    5                        3                     10
    30   M        12           Family           1                     56                     4                   18                        3                     24
    31   M        11           Family           2                     13                     4                    6                        3                      2
    32   F        18           Family           1                     29                     4                   13                        3                     22
    33   M        12           Family           1                     20                     4                    2                        4                      5
    34   M         5          Adoptive          1                     50                     4                   52                        8                      6
    35   F        14           Family           1                     38                     5                   13                        1                     13
    36   M        14           Family           1                     29                     5                   10                        2                      4
    37   F        15           Family           1                     22                     5                    6                        5                     15


         O E I - 07 - 00 - 0 0 6 4 0       C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S        16
  A   P    P      E      N      D       I    X   ~   B




                                                                Months                  Months
                               Entries Months Placements                  Caseworkers
               Age Placement                                   since last             caseworker
      ID Sex                 into foster since last since last             since last
             (years) Setting                                   placement               with case
                               care (1) entry (2) entry (3)                  entry
                                                                   (2)                    (2)
      38   F            14           Kinship              1                     15                     6                    5                        2                      5
      39   M            12            Family              1                     28                     6                    3                        3                      3
      40   M            17          Residential           1                     11                     6                    5                        3                      1
      41   F             5            Family              2                     55                     6                   42                        3                      8
      42   F            17            Family              1                     18                     7                    1                        5                     20
      43   M            15            Family              2                     36                     9                    2                        2                      9
      44   M             6           Adoptive             1                     39                     9                    2                        4                     20
      45   M             7            Family              2                     44                    10                    9                        3                      6
      46   F            17            Family              1                     11                    11                   11                        1                     15
      47   F            11          Residential           1                     62                    11                   23                        5                     14
                                      Group
      48 M              19            Home                1                     65                    14                    3                        8                     16
      49 F              14            Family              1                     16                    16                    5                        2                      3
      50 M              15          Residential           1                     30                    18                    8                        4                      1




(1) “Entries into foster care” refers to the number of times a child has entered State custody (i.e., number of foster 

care “episodes”).

(2) “Months since last entry” is the length of time from the date of the child’s most recent entry into State custody 

until 05/31/02, which coincides with the last date of our claims record. “Months since last placement” is the 

length of time from the date of the most recent placement to the date the foster care provider was interviewed, and 

may be up to 4 months greater than “months since last entry” due to rounding. “Months caseworker with case” is 

the length of time from the date the caseworker initially took over the case until the date the caseworker was 

interviewed and may be up to 4 months greater than “months since last entry” due to rounding. 

(3) “Placements since last entry” refers to the number of placement settings (e.g., Foster Home A, Foster Home B, 

Metro Residential Facility) a child has experienced during each “episode” in foster care.





               O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S        17
        A P P E N D I X ~ C

Detailed Claims Data

                                        The table below describes whether the child received required
                                        services, including a tally of services during his or her time in foster
                                        care from a period June 1, 1999, to May 30, 2000, or entry to
                                        May 30, 2002, whichever is shorter.




                                        Medical
                                                                                                  Mental
     EPSDT           Dental    30-day    history
                                                 Office visit                                     health-              Prescription Dental Hospital
  ID current         current physical provided
                                                   claims                                         related                 claims    claims claims
       (1)            (1,2)  assessment to care
                                                                                                  claims
                                        provider
   1   YES               N/A          YES                YES                     25                    20                       18                  0         0
   2   YES               NO           YES                YES                     43                    25                        8                  18        0
   3   YES               YES          YES                NO                      12                    8                         2                  4         0
   4   NO                NO           N/A                YES                     16                    33                        5                  13        0
   5   YES               YES          N/A                YES                     8                     40                        8                  53        0
   6   YES               YES          YES                NO                      13                    12                        6                  12        0
   7   YES               N/A          YES                YES                     33                    24                       14                  0         1
   8   YES               YES          YES                NO                      16                    51                        5                  9         0
   9   YES               N/A          YES                NO                      75                    7                        29                  0         0
  10   YES               N/A          YES                NO                      50                    19                       29                  0         0
  11   YES               YES          YES                NO                     101                    78                       41                  22        0
  12   YES               YES          YES                YES                     15                    20                        3                   2        0
  13   YES               YES          YES                YES                      9                    19                        5                  17        0
  14   YES               N/A          YES                YES                     21                    24                       21                  0         0
  15   YES               YES          NO                 NO                      59                    32                       18                  4         0
  16   YES               N/A          NO                 YES                     18                    17                        4                  0         0
  17   YES               N/A          YES                NO                      25                    14                       16                  0         0
  18   YES               YES          YES                YES                     14                    22                        3                  22        0
  19   YES               YES          YES                NO                      22                    41                        6                  20        0
  20   YES               N/A          YES                YES                     40                    20                       16                   0        0
  21   YES               YES          NO                 NO                      7                     37                       3                   11        0
  22   YES               N/A          YES                NO                      23                    30                       15                  0         0
  23   YES               NO           YES                NO                      17                    82                       5                   24        0
  24   YES               N/A          YES                YES                     30                    19                       20                   3        0
                                                        No
  25   NO*               NO           YES                                        22                    12                        9                  0         0
                                                     Interview
  26   YES               NO           YES               NO                       27                    15                       54                   0        1
  27   YES               YES          YES               YES                      15                   114                       4                   23        0



        O E I - 07 - 00 - 0 0 6 4 0     C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S       18
A        P   P      E      N      D       I    X   ~   C




                                                  Medical
                                                                                                                 Mental
       EPSDT                   Dental    30-day    history
                                                           Office visit                                          health-              Prescription Dental Hospital
    ID current                 current physical provided
                                                             claims                                              related                 claims    claims claims
         (1)                    (1,2)  assessment to care
                                                                                                                 claims
                                                  provider
    28       YES                  N/A              YES                  NO                      16                    15                        3                  0         0
    29       YES                  YES              YES                  NO                      56                    37                        2                  17        0
    30       YES                  NO               N/A                  YES                     62                    43                       16                  17        0
    31       YES                  YES              YES                  YES                     8                     49                       0                   5         0
    32       NO                   YES              YES                  YES                    179                   127                       92                  39        1
    33       YES                  YES              YES                 YES                       6                    29                        2                  7         0
                                                                       No
    34       YES                 NO*               N/A                                          57                    32                       45                  0         0
                                                                    Interview
    35       NO                   YES              N/A                 YES                      15                    47                        2                  24        0
    36       YES                  YES              YES                  YES                    290                    38                       45                   9        1
    37       NO                   YES              NO                   NO                      9                     43                       11                  13        0
    38       YES                  YES              YES                  YES                     12                    45                       22                  25        0
                                                                       No
    39       YES                  YES              NO                                           60                    60                      101                  10        3
                                                                    Interview
    40       YES                  YES              YES                 NO                       29                    10                        6                  8         0
    41       YES                  YES              N/A                  NO                      24                    48                       13                  10        0
    42       YES                  YES              YES                  YES                     70                    25                       54                  24        0
    43       YES                  YES              N/A                  YES                     60                    94                       5                   52        0
    44       YES                  YES              N/A                  YES                     55                    73                       16                  13        0
    45       YES                  YES              N/A                 NO                       30                    32                       13                  33        0
                                                                       No
    46       YES                  YES              NO                                           14                    12                        3                  2         0
                                                                    Interview
    47       YES                  YES              N/A                 YES                      98                    47                      147                  9         0
    48       YES                  YES              N/A                  NO                      20                    54                       15                  14        0
    49       YES                  YES              YES                  YES                     72                    51                       57                  31        0
    50       YES                  YES              NO                   YES                    128                    70                       92                  56        0




    (1) * = No record of screening ever performed
    (2) N/A = Under the age of 3 years or child was placed before June 1, 1999



                 O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S       19
          A P P E N D I X ~ D 


Agency Comments - ACF




  O E I - 07 - 00 - 0 0 6 4 0   C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   20

A   P   P      E      N       D       I   X   ~   D




        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   21

A   P   P      E      N       D       I   X   ~   D




        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   22

A   P   P      E      N       D       I   X   ~   D




        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   23

       A P P E N D I X ~ E 


Agency Comments - CMS




       O E I - 07 - 00 - 0 0 6 4 0   C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   24

A   P   P      E      N       D       I   X   ~   E




        O E I - 07 - 00 - 0 0 6 4 0           C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   25

A C K N O W L E D G M E N T S 



                              This report was prepared under the direction of Brian T. Pattison, 

                              Regional Inspector General for Evaluation and Inspections and 

                              Gina Maree, Assistant Regional Inspector General for Evaluation 

                              and Inspections in Kansas City. Other principal Office of 

                              Evaluation and Inspections staff who contributed include:



                              Deborah Walden, Team Leader


                              Steve Milas, Program Analyst 


                              Michala Walker, Program Analyst


                              Brian T. Whitley, Program Analyst


                              Linda Paddock, Program Analyst


                              Linda Hall, Program Specialist (Washington, D.C.)


                              Barbara Tedesco, Mathematical Statistician (Baltimore)





O E I - 07 - 00 - 0 0 6 4 0   C H I L D R E N’ S U S E   OF   H E A L T H C A R E S E R VI C E S W H I L E   IN   F O S T E R CA R E : KA N S A S   26
